U.S. Department of the Interior
Office of Inspector General




      INSPECTION REPORT


 SELECTED ADMINISTRATIVE ACTIVITIES
 OF THE MID-PACIFIC REGIONAL OFFICE,
      BUREAU OF RECLAMATION

            REPORT NO. 95-I-1209
               AUGUST 1995
                                                                  W-IN-BOR-O04-95
            United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                  HeadquartersAudits
                                 1550 Wilson Boulevard
                                       Suite 401
                                   Arlington, VA 22209


                          INSPECTION REPORT

To:       Regional Director, Mid-Pacific Region, Bureau of Reclamation

From:
          Acting Assistant’ Inspector General for Audits

Subject: Final Inspection Report on Selected Administrative Activities of the
         Mid-Pacific Regional Office, Bureau of Reclamation (No. 95-I-1209)

                              INTRODUCTION
The Office of Inspector General has completed an inspection of selected
administrative activities of the Mid-Pacific Regional Office, Bureau of Reclamation.
The objective of the inspection was to determine whether the selected activities were
conducted in accordance with established laws and regulations and Bureau policies
and procedures.

BACKGROUND

The Mid-Pacific Regional Office, in Sacramento, California, provides administrative
support services for Bureau operations in California, Nevada, and Oregon. These
services include providing for employee time and attendance, employee travel
property accountability, and the procurement of goods and services. In fiscal year
1994, the Regional Office employed about 380 people; incurred salaries of over $18
million, including $386,000 for overtime; and spent $1.3 million for travel. In fiscal
year 1995, many of the Region’s travelers obtained Government-sponsored travel
cards to assist in accomplishing their travel, and more than 30 percent of the
travelers were enrolled in the Bureau’s automated teller machine program. Under
this program, travelers are provided a convenient alternative to the traditional
method of obtaining cash advances directly from the Bureau through the imprest
fund or a Treasury check.

The Region used several procurement methods, including the imprest fund and the
Government purchase card programs, to acquire goods and services that were within
the small purchase limit ($25,000 or less). The use of purchase cards is a recent
innovation that can help streamline both the procurement and the payment
processes. The Region has widely promoted the program, with more than
65 employees authorized to use the purchase card for small purchases.
SCOPE OF INSPECTION
Our inspection was accomplished in accordance with the “Quality Standards for
Inspections,” issued by the President’s Council on Integrity and Efficiency, and,
accordingly, included such tests and inspection procedures considered necessary
under the circumstances to accomplish the stated objectives. We focused our
inspection on the administrative activities associated with: (1) employee overtime and
travel; (2) the Regional Office imprest fund; and (3) the use of Government
purchase cards. The inspection was performed at the Mid-Pacific Regional Office.
Our inspection conclusions were based on information obtained from interviews with
Regional employees and supervisors and a review of applicable policies and
procedures. As part of the inspection, we also performed a limited test of
transactions that occurred during fiscal years 1994 and 1995 and reviewed the
pertinent accounting records, invoices, and other documentation maintained in
support of these transactions. We excluded property accountability from the
activities selected for inspection because the Department of the Interior implemented
a new property accountability policy on February 17, 1995. The results of our
inspection of the Regional Office’s imprest fund activities were presented separately
in the report entitled “Mid-Pacific Regional Office Irnprest Fund, Bureau of
Reclamation” (No. 95-1-681), dated March 17, 1995.

                       RESULTS OF INSPECTION
Our inspection of employee overtime, employee travel, and Government purchase
card use indicated that these administrative activities were generally conducted in
accordance with established laws and regulations and Bureau policies and
procedures. In that regard, our limited tests of transactions selected from fiscal years
1994 and 1995 identified only minor control weaknesses. On July 11, 1995, we
discussed the results of our inspection with Regional officials, who agreed to take
actions to address these weaknesses.

Since this report does not contain any recommendations, no response is required.
However, if you have any questions concerning this report please call Mr. Robert
Williams, Regional Audit Manager, Western Region, at (916) 979-2700.



cc:   Commissioner, Bureau of Reclamation




                                           2
               ILLEGAL OR WASTEFUL ACTMTIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY


Sending written documents to:                                  Calling:


                      Within the Continental United States


U.S. Department of the Interior                          Our 24-hour
Office of Inspector General                              Telephone HOTLINE
P.O. Box 1593                                            1-800-424-5081 or
Arlington, Virginia 22210                                (703) 235-9399

                                                         TDD for the hearing impaired
                                                         (703) 235-9403 or
                                                         1-800-354-0996


                      Outside the Continental United States

                                     Caribbean Area


U.S. Department of the Interior                          (809) 774-8300
Office of Inspector General
Caribbean Region
Federal Building & Courthouse
Veterans Drive, Room 207
St. Thomas, Virgin Islands 00802


                                  North Pacific Region

U.S. Department of the Interior                          (700) 550-7279 or
Office of Inspector General                              COMM 9-011-671-472:7279
North Pacific Region
238 Archbishop F. C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
                             .




                                 t




                                 m*
j    FTS/Commercal Numbers
j    703-235-9399 “              E
#.   TDD 703-235-9403            :




                                      —
